<html>
<title> - PROVINCIAL RECONSTRUCTION TEAMS--HISTORICAL AND CURRENT PERSPECTIVES ON DOCTRINE AND STRATEGY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                         [H.A.S.C. No. 110-102]

PROVINCIAL RECONSTRUCTION TEAMS--HISTORICAL AND CURRENT PERSPECTIVES ON 
                         DOCTRINE AND STRATEGY

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 5, 2007

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE











                     U.S. GOVERNMENT PRINTING OFFICE

40-361 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
























                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                Mike McErlean, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant






















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, December 5, 2007, Provincial Reconstruction Teams--
  Historical and Current Perspectives on Doctrine and Strategy...     1

Appendix:

Wednesday, December 5, 2007......................................    37
                              ----------                              

                      WEDNESDAY, DECEMBER 5, 2007
PROVINCIAL RECONSTRUCTION TEAMS--HISTORICAL AND CURRENT PERSPECTIVES ON 
                         DOCTRINE AND STRATEGY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Carreau, Bernard T., Senior Research Fellow, Center for 
  Technology and National Security Policy, National Defense 
  University.....................................................     4
Hicks, Kathleen H., Senior Fellow, International Security 
  Program, Center for Strategic and International Studies........    11
Olson, Brig. Gen. Eric T. ``Rick'' (Ret.), Former Commander, 
  Combined/Joint Task Force-76, Former Director, National 
  Coordination Team, U.S. Army...................................     9
Warner, Gen. Volney F. (Ret.), U.S. Army, President and Chief 
  Executive Officer, V.F. Warner and Associates..................     7

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    43
    Carreau, Bernard T...........................................    46
    Hicks, Kathleen H............................................    74
    Olson, Brig. Gen. Eric T. ``Rick''...........................    63
    Snyder, Hon. Vic.............................................    41
    Warner, Gen. Volney F........................................    53

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]

















 
PROVINCIAL RECONSTRUCTION TEAMS--HISTORICAL AND CURRENT PERSPECTIVES ON 
                         DOCTRINE AND STRATEGY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                       Washington, DC, Wednesday, December 5, 2007.
    The subcommittee met, pursuant to call, at 2:07 p.m. in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    Mr. Akin, the ranking member, is en route. He got 
temporarily hung up, but he will be here shortly. He said we 
could go ahead and begin. When he gets here, we will give him 
an opportunity to give his opening statement also.
    Welcome to the Subcommittee on Oversight and 
Investigations' hearing on Provincial Reconstruction Teams--
PRTs--Historical and Current Perspectives on Doctrine and 
Strategy.
    The subcommittee is conducting a series of hearings and 
briefings on the PRT programs in Afghanistan and Iraq to get a 
better understanding of what PRTs are, what they do and the 
contribution that they are making in stabilizing Afghanistan 
and Iraq. We have used this project as a case study of 
interagency operations. In order to emphasize the importance of 
interagency operations and to reinforce why our efforts here 
are so important, I would like to quote the Secretary of 
Defense, Mr. Gates, on his recent remarks on the subject.
    Quote, ``One of the most important lessons of the wars in 
Iraq and Afghanistan is that military success is not sufficient 
to win. There is economic development, institution-building and 
the rule of law, promoting internal reconciliation, good 
governance, providing basic services to the people, training 
and equipping indigenous military and police forces, strategic 
communications, and more. These, along with security, are 
essential ingredients for long-term success. Accomplishing all 
of these tasks will be necessary to meet the diverse challenges 
I have described.'' That is the end of the quote by Secretary 
Gates.
    These imperatives cannot be accomplished by military alone. 
We need the capabilities of our entire government brought to 
bear in support of our current efforts.
    The purpose of today's hearing is to put our current 
efforts of stabilization and reconstruction in Iraq and 
Afghanistan into context where Secretary Gates says, quote, 
``Context is important,'' end quote.
    The Nation has been here before. Throughout our history we 
have experienced the difficulties of transitioning from the use 
of force to the task of rebuilding war-torn societies from our 
own Civil War to the hot and cold 20th century wars in Europe 
and in the Far East and from smaller post-Cold War struggles 
such as in the Balkans and in Haiti.
    Perhaps the campaigns which most closely resemble efforts 
in Iraq and Afghanistan are previous counterinsurgency efforts. 
In such cases, we engaged in armed insurgency while attempting 
to rebuild the physical and political structures of countries. 
Our goal has usually been a stable, peaceful, democratic, and 
independent nation state, friendly to the United States and its 
neighbors.
    Secretary Gates recently cited the Vietnam Civil Operations 
Revolutionary Development Support (CORDS) effort as an example. 
Again, quoting Secretary Gates, ``However uncomfortable it may 
be to raise Vietnam all of these years later, the history of 
that conflict is instructive. After first pursuing a strategy 
based on conventional military firepower, the United States 
shifted course and began a comprehensive, integrated program of 
pacification, civic action and economic development. It had the 
effect of, in the words of General Creighton Abrams, 'putting 
all of us on one side and the enemy on the other.' by the time 
U.S. troops were pulled out, the CORDS program had helped to 
pacify most of the hamlets in South Vietnam. The importance of 
deploying civilian expertise has been relearned the hard way 
through the effort to staff Provincial Reconstruction Teams 
first in Afghanistan and, more recently, in Iraq. The PRTs were 
designed to bring in civilians experienced in agriculture, 
governance and other aspects of development to work with and 
alongside the military to improve the lives of the local 
population, a key tenet of any counterinsurgency effort.'' That 
is the end of, again, Secretary Gates' quote.
    We hope that today's witnesses can help us gain a better 
understanding of and perspective on our efforts in Iraq and 
Afghanistan. We have brought together practitioners and 
scholars who have experienced and/or studied these previous and 
current campaigns in great detail. As always, we seek our 
witnesses' recommendations on what we should do, what this 
Congress should do, to increase the likelihood of the success 
of our Nation's efforts both in the ongoing wars in Iraq and 
Afghanistan and in the wars of the future.
    Our panel of witnesses today includes Mister--is it ``Ber-
nerd'' or ``Ber-nard''?
    Mr. Carreau. Bernard.
    Dr. Snyder. Bernard, also known as ``Bernie.''
    Mr. Carreau. ``Bernie.''
    Dr. Snyder. We have Mr. Bernard Carreau, Senior Research 
Fellow at the Center for Technology and National Security 
Policy at the National Defense University.
    General Warner, retired U.S. Army, President and Chief 
Executive Officer of V.F. Warner and Associates.
    It is my understanding, General Warner, that your bride is 
with you today.
    General Warner. Yes, she is----
    Dr. Snyder. We would like to acknowledge her presence here.
    General Warner [continuing]. And older son.
    Dr. Snyder. And older son. Good for you.
    Brigadier General Rick Olson, U.S. Army, Retired, former 
Commander, Combined/Joint Task Force-76 in Afghanistan and 
former Director of the National Coordination Team in Iraq.
    Our fourth witness is Ms. Kathleen Hicks, Senior Fellow of 
the International Security Program at the Center for Strategic 
and International Studies.
    We appreciate your all being here. Your written statements 
will, without objection, be made a part of the record.
    I also wanted to introduce a friend of mine, one of my 
constituents, Dr. Sharon Williams.
    Dr. Williams, if you would not mind standing up so folks 
can see you. Wave and say hello.
    She is going to be with us for a few minutes. She is from 
Little Rock, Arkansas. She has a husband and family and two 
lovely little girls back home. She spent six months in 
Afghanistan as a veterinarian with the U.S Department of 
Agriculture. She has spent seven months as the Ministry Adviser 
for Animal Health and Food Safety at the United States 
Department of Agriculture in Baghdad. She has been there for 
seven months. She came home for Thanksgiving. She spent time in 
Arkansas with her little girls and husband, and she is now 
heading back tomorrow to complete another five months in Iraq.
    Once we finish with all of your opening statements, we will 
go to our five-minute rule. The members who were here at the 
gavel will go first, followed by other members as they come in. 
I also ask, without objection, unanimous consent for Dr. 
Charles Boustany to participate in the hearing today after all 
of the regular subcommittee members have finished.
    We will now go to Mr. Akin for any comments he would like 
to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 41.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Dr. Snyder.
    Good afternoon to our witnesses. We appreciate your being 
here today.
    Today's hearing is this subcommittee's fifth public hearing 
on Provincial Reconstruction Teams. Our witnesses will not only 
offer their perspectives on the current PRT program but will 
put these operations into historic context. The only thing 
really new about PRTs is the name. The concept of how an 
interagency team comprised of civilian and military personnel 
works to extend the reach of the government into regional 
provinces and local areas comes with significant historical 
precedent.
    The most recent and commonly referenced analog to PRTs is 
the Civil Operations Revolutionary Development Support, or 
CORDS, program the United States employed during Vietnam. The 
CORDS program was the interagency response to insurgency during 
the Vietnam War. Like the PRTs, CORDS teams are made up of 
civilian and military personnel. CORDS teams spread out to the 
44 provinces and personnel with the provincial and district 
levels embedded with the local government officials.
    Most importantly and critical to our efforts in Iraq and 
Afghanistan is that many believe the CORDS fulfill the most 
fundamental mission of counterinsurgency. Proponents of this 
view believe the CORDS program increased the effectiveness of 
the local government and security forces by training 900,000 
Vietnamese, including 300,000 civil servants. CORDS helped 
establish the vitality of the South Vietnamese Government by 
providing competitive services and local security. This 
marginalized the Viet Cong, and people no longer felt compelled 
to turn to the shadow Communist regime.
    After the institution of CORDS, a Viet Cong colonel 
lamented, last year we could attack the United States forces; 
This year we find it difficult to attack even puppet forces. We 
failed to win the support of the people and to keep them from 
moving back to enemy-controlled areas.
    This sentiment is exactly the type of thing we need to hear 
from al Qaeda and Taliban operatives fighting in Iraq and 
Afghanistan.
    Again, thank you all for being witnesses here today. We are 
very interested in what you have to say and in particularly the 
historic connect and in what we should be learning from our 
experiences in the past. Thank you.
    Thank you, Dr. Snyder.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 43.]
    Dr. Snyder. Thank you, Mr. Akin.
    We will put this little clock on there, which I assume you 
can see from your side. Now, we will put it on five minutes, 
but that is more just for your benefit to know when five 
minutes go by. If you have other things you want to get to, you 
can feel free to ignore it when the red light comes on.
    Mr. Carreau, you are recognized, and then we will just go 
down the line to General Warner and then to General Olson and 
then to Ms. Hicks.

STATEMENT OF BERNARD T. CARREAU, SENIOR RESEARCH FELLOW, CENTER 
 FOR TECHNOLOGY AND NATIONAL SECURITY POLICY, NATIONAL DEFENSE 
                           UNIVERSITY

    Mr. Carreau. Thank you, Mr. Chairman.
    Chairman Snyder, Congressman Akin and distinguished 
members, thank you for inviting me here today to discuss 
current and historical perspectives on PRTs. I am honored to be 
here and with such distinguished fellow panelists.
    Today, I want to talk briefly about civil-military and 
interagency relations in Vietnam. Although the scale and 
historical circumstances of Vietnam differ greatly from those 
of Iraq and Afghanistan, some aspects of intergovernmental 
relations in Vietnam may offer valuable lessons for today.
    Like the wars in Iraq and Afghanistan, Vietnam was a war in 
which the United States was itself a belligerent, as opposed to 
a third party intervenor. It was a war in which the United 
States suffered significant casualties and extended significant 
resources, and it was a war which had an enormous impact on our 
national security interests and domestic politics.
    Turning to the CORDS effort, pacifications efforts in 
Vietnam--what might today be called counterinsurgencies or 
postwar stability operations--involved returning government 
control to a countryside that was infiltrated by Viet Cong 
insurgents. It focused on local security efforts but also 
included distributing food and medical supplies, agriculture 
support, job creation, and land reform.
    The Civil Operations and Rural Development Support program 
was created in 1967 after years of unsatisfactory attempts at 
coordinating the activities of multiple agencies under the U.S 
Ambassador's Country Team. President Johnson appointed Robert 
Komer to the position of Deputy to General William 
Westmoreland, the Commander of Military Assistance Command 
Vietnam (MACV). Robert Komer's nickname was ``Blowtorch Bob'' 
to give you an idea of his forceful and no nonsense 
personality. The Deputy Commander carried a three-star rank. 
The union of the previously separate civilian and military 
pacification efforts into the combined CORDS program resulted 
in what may have been the only truly integrated civilian-
military command in U.S. history. The integrated command placed 
civilians in charge of military personnel and vice versa. It 
also placed military resources, including logistics, transport 
and force protection assets, at the disposal of civilians. 
Military and civilian units were collocated, often in the same 
building at the national, regional, province, and district 
levels.
    Komer developed a cordial relationship with Westmoreland, 
as did Komer's successor, William Colby, with Westmoreland's 
successor, General Creighton Abrams. In turn, Generals 
Westmoreland and Abrams showed great flexibility and allowed 
their civilian deputies considerable leeway in setting 
priorities and in allocating resources. By placing almost all 
pacification-related programs under a single headquarters and 
by investing the single manager with unprecedented access to 
resources, Komer had sufficient leverage to force the various 
agencies to develop and to implement a nationwide pacification 
plan in conjunction with the South Vietnamese Government.
    Much of the impetus for reorganizing CORDS came from 
President Johnson himself. Johnson viewed pacification in 
Vietnam as an extension of his vision for his domestic ``Great 
Society'' policies, and began to describe the effort to help 
the Vietnamese people as the ``other war.''
    I wanted to make just a couple of observations about the 
CORDS program and today's PRTs. Of course, the scale of the 
pacification of it in Vietnam dwarfed the PRT efforts in both 
Iraq and Afghanistan. For example, there were almost 8,000 U.S. 
participants in CORDS and as much as 800,000 South Vietnamese 
army, national police and local government officials, all of 
this against the backdrop of about 500,000 U.S. troops and 
400,000 South Vietnamese conventional forces. Compare this to 
Afghanistan where there are approximately 30,000 coalition 
forces and about 3,000 personnel in the PRTs. There are more 
troops, of course, in Iraq, but there are fewer PRT personnel.
    The lessons from CORDS have more to do with organizational 
structure. Many former participants--State, the United States 
Agency for International Development and the military--talk 
about the surprising level of cooperation, large amounts of 
financial resources available for pacification projects in 
Vietnam. They talk about the symbiotic relationship. The 
military needed civilian expertise, local governance and job 
creation. The civilians needed the military protection, of 
course, and their expertise in counterinsurgency operations, 
and they needed their lift and force protection abilities.
    One point I would make is to compare CORDS with the 
original structure in Iraq. In Iraq, originally under the 
Office of Reconstruction and Humanitarian Assistance (ORHA), 
there was a retired three-star general who was appointed to 
head up the reconstruction efforts, separate from the military 
command, with no access to resources. No matter how competent, 
a retired three-star cannot compete for resources and influence 
with an active duty four-star general in charge of the entire 
operation.
    I wanted to make a couple of points also about 
nontraditional security assistance, which I know is on today's 
agenda and which my fellow panelists will talk more about. I 
want to draw a sharp distinction between stabilization, 
pacification and counterinsurgency activities in a war zone and 
security cooperation arrangements, training equipment activity 
and longer term development activities in noncrisis countries.
    In my view, it is entirely appropriate for the military to 
have the lead on reconstruction activities in a war zone. The 
lesson of CORDS in Vietnam is that this structure works better 
than having a civilian lead. In Vietnam, pacification had 
priority over traditional development assistance, although in 
practice on the ground it was often hard to tell the difference 
between the two. Everyone agreed that security had to come 
before reconstruction.
    One example I would cite today as a contrast to that from 
Iraq is the example of state-owned enterprises. It is an issue 
I know well because when I was in Iraq with Coalition 
Provisional Authority (CPA) I was on detail from the Commerce 
Department, and my area was private sector development.
    There is still disagreement today between the State 
Department and the Department of Defense over whether to 
rehabilitate state-owned enterprises or to privatize them. It 
is my view now, as it was when I was in Baghdad, that the 
state-owned enterprises should be rehabilitated where possible 
in a war zone to get people back to work and off the streets, 
even though of course this view is entirely contrary to 
traditional long-term development orthodoxy.
    So, in some final concluding remarks, I would say that 
unity of command in a war zone is essential, and I say that as 
a civilian and as a former civilian participant in one of these 
operations. In a major contingency such as Vietnam or Iraq, the 
unity of command between military and civilian efforts which 
brings along with it the enormous military resources I think is 
an imperative element. I think there needs to be a mandatory 
control structure. A civil-military chain of command should be 
established at the very highest levels of the government 
because without top-down direction there will be intense 
organizational resistance to the concession of the control of 
agency assets to a unified interagency headquarters. There 
should be a focus on the local population, which CORDS 
incorporated. Counterinsurgency and stabilization activities 
require a focus on local populations and on understanding and 
in fulfilling their needs. The focus in CORDS was on security 
first, then economic well-being.
    The final point I would make is that, in these types of 
activities in a war zone, we need to encourage host nation 
ownership. CORDS was designed to empower the South Vietnamese 
Government to provide security and essential services to the 
districts and villages. In fact, the ratio of the U.S. 
participants was about 1 to 1,000, U.S. to South Vietnamese 
participants.
    The final point I would make is that the lesson is to build 
the local private sector. CORDS was designed to build the 
agriculture and economic livelihoods of local villages and 
districts rather than as a temporary employment or as a one-
time donor contribution. I will stop there.
    I thank the committee for the opportunity to appear before 
you today.
    [The prepared statement of Mr. Carreau can be found in the 
Appendix on page 46.]
    Dr. Snyder. Thank you, Mr. Carreau.
    Before you begin, General Warner, I want to acknowledge the 
loss of your granddaughter, First Lieutenant Laura Margaret 
Walker, who died in combat in Afghanistan on August 18th, 2005. 
We know that has been a tremendous sacrifice for your family, 
and you still have six other members who have served in the 
military. We appreciate your service and the service of your 
family.
    General Warner.

STATEMENT OF GEN. VOLNEY F. WARNER (RET.), U.S. ARMY, PRESIDENT 
    AND CHIEF EXECUTIVE OFFICER, V.F. WARNER AND ASSOCIATES

    General Warner. Thank you.
    Well, it has been over 25 years since I have been in the 
building, this building, so I appreciate----
    Dr. Snyder. It looks about the same, does it not?
    General Warner. There are still cakes in the hallway. I 
noticed that, but I am honored to be here and to have a chance 
to participate.
    I was thinking on the way over, since I have not been to 
Afghanistan and I have not been to Iraq, the reason for my 
appearance had to be my presentation given to the National War 
College, and I wanted to in my opening statement just mention 
what that was. I think it is related to what happens next, 
really, and I believe the committee has been provided the notes 
on my presentation given to the National War College. I titled 
the presentation Getting Past Iraq and that my greatest 
interest was to ensure that we come up with a better solution 
to assist future failed states, where U.S. vital interests are 
involved, without resorting to the deployment of conventional 
military force.
    The U.S. cannot resolve most of the instability in the 
world militarily. Winning all battles is not excellence. 
Excellence is achieving our goal without fighting, and the best 
way to win wars is to make them unnecessary.
    If there truly is to be a global Islamic movement and our 
enemies are extremists, nonstate players using asymmetric 
warfare, if that is the case, then the nature of future 
conflict, which includes both hard and soft power, is more 
political than military. As such, we need to fashion a better 
interagency preemptive response. Let us call it 
``counterinsurgency,'' commonly referred to as ``COIN.''
    How should we proceed?
    My thought would be that, first, we need to put together an 
overarching national counterinsurgency plan to start the 
process. The national plan should be built from the bottom up 
by integrating those counterinsurgency plans as coordinated 
between the Regional Unified Commanders, called ``Commander in 
Chiefs'' (CINCs) in my day--it has changed somewhat recently--
and their ambassador counterparts. Priority should be given to 
failed states where a vital U.S. national interest is involved. 
The Congress should mandate and fund the soft power agencies of 
the U.S. Government to enable them to perform their part of the 
interagency task, to include the State Department, the U.S 
Agency for International Development, the Central Intelligence 
Agency, and a new U.S. information agency, just to name a few.
    A new Department of Stability coequal to Defense and State 
in authority and funding may be required to manage the efforts 
at the national level under the watchful eye of a special 
assistant to the President. Having been under the watchful eye 
of Komer for about two and a half years, I understand exactly 
what that means. If we could find a Komer clone somewhere in 
the United States, he would be a welcomed special assistant to 
the President to bring the agencies on board in the Washington 
region and to backstop the Petraeuses of the world and those 
who are out on the ground trying to get the job done.
    Once that would be established and the teams would be then 
trained, we could have a microcosm country team, PRTs, in terms 
of Afghanistan and Iraq. They should be trained and tailored 
country by country to support the forward-deployed U.S. 
ambassadors and their Military Assistance Advisory Group 
Staffs, MAAGS, which were greatly reduced in 1973 and should 
once again be augmented so that they can actually do the job 
required of them in the countries they find themselves and, 
certainly, in working with the local populations in 
counterinsurgency efforts at the province level.
    Secure, hold and build is a good paradigm. It is very 
descriptive of the team activities once deployed. As we have 
just heard, that is exactly what happened in the Vietnam. The 
objective should be not to impose our political and economic 
ideals on the locals but to devise and fund plans supportive of 
both their and our interests in the region. Only when it 
appears that an advisory effort has failed will the President 
be faced with the critical decision of whether to deploy 
conventional military force or to withdraw support or to seek 
multilateral support.
    I thank you for letting me make that pitch.
    [The prepared statement of General Warner can be found in 
the Appendix on page 53.]
    Dr. Snyder. Thank you, General Warner.
    General Olson.

 STATEMENT OF BRIG. GEN. ERIC T. ``RICK'' OLSON (RET.), FORMER 
   COMMANDER, COMBINED/JOINT TASK FORCE-76, FORMER DIRECTOR, 
             NATIONAL COORDINATION TEAM, U.S. ARMY

    General Olson. Mr. Chairman, thank you and thanks to the 
members. I think the order that we are speaking is fortuitous 
because you have gotten a good introduction to the historical 
context. I am going to talk a little bit about history that is 
more recent, and then Ms. Hicks will talk a little bit about 
policy, I am sure, since she has got a good background in that.
    My association with PRTs began in Afghanistan where I 
served, as the chairman said, as the Combined/Joint Task Force 
(CJTF) Commander there, responsible for all U.S. military 
operations, and as such I also ran the PRTs. In Afghanistan, 
PRTs are run by the military. That is not the case in Iraq. 
Then in August 2006, as an official of the Department of State, 
I became the Deputy Director of the Iraqi Reconstruction 
Management Office and the Director of the National Coordination 
Team. So, as a State Department official, I ran all of the PRTs 
in Iraq. There were very different effects there, and we can 
talk about that more later on if you would like to.
    PRTs in Afghanistan were first established by Ambassador 
Khalilzad. The first one was in Gardez Province in 2003, about 
50 miles south of Kabul. The purpose of these organizations--
and all PRTs are civil-militaries, as you are well aware--was 
to serve as the primary interface between the Coalition and 
Afghan provincial and local governments, not the national 
government but the provincial and local governments, and to 
assist them in governing their provinces more effectively and 
to deliver essential services to the people.
    PRTs in Afghanistan were commanded by military officers. 
That is not the case in Iraq. In Iraq, they are not PRT 
commanders; they are PRT leaders. Again, there is a difference. 
That produces a difference as well. The PRTs in Afghanistan 
were initially manned primarily or staffed primarily by 
military personnel, overwhelmingly by military personnel. Later 
on the State Department and USAID officials entered the fray.
    The PRT program in Iraq was instituted in November 2005. 
Again, Ambassador Khalilzad is the one who brought it on board. 
By that time, he had moved from Afghanistan to Iraq. The first 
PRTs there were opened up in Mosul, Kirkuk and then later on in 
Baghdad. There were eventually 10 PRTs. That is how many 
standing PRTs there are now. There are now 25 PRTs in total.
    There are really three types of PRTs. There are the 
standing PRTs, which are located within the provinces where 
they operate. There are 10 of those in Iraq and about 25--all 
of the ones in Afghanistan are standing PRTs.
    The next is what is known as a provincial support team. 
They exist in Iraq, not in Afghanistan, but these are small 
civil-military teams that are located outside of the province 
in which they are supposed to operate, and they go back and 
forth into the province from some type of hub PRT. Normally, 
you will see a PST in an area that does not support from a 
security standpoint the actual establishment of a PRT in that 
province.
    Then there is what is known as the embedded PRT. Those were 
started early this year in Iraq. Those PRTs are actually 
embedded in brigade combat teams, and those PRTs work for the 
brigade commander. It is very similar to the CORDS concept as I 
understand it.
    I would like to very quickly go over some of the 
accomplishments, if you will, the successes of the PRTs and 
then areas where they have fallen short or where they have been 
challenged. The first area is provincial and local governments 
in both Afghanistan and Iraq are functioning. They may not be 
what we would all recognize as, you know, the paragon of good 
governance, but they are up and they are functioning in each 
one of the provinces, and that was not the case before the PRTs 
were stood up.
    There are reconstruction projects that the PRTs have 
started that are having an effect and that are actually making 
a difference in the lives of the people.
    Third, micro-loans and micro-grants channeled through 
Provincial Reconstruction Teams are having a salutary economic 
effect, so economic development is occurring as a direct result 
of the work that PRTs are doing. PRTs have contributed to the 
reconciliation process. This Sunni awakening in Anbar Province 
was, in many ways, facilitated by the PRT, then, later on, the 
embedded PRTs located in Anbar. Right now, there are four PRT 
organizations in Anbar, and they are helping with the 
reconciliation process.
    Then, finally, cooperation and coordination between 
provincial and national governments has been improved through 
the efforts of PRTs. PRTs have been directly involved in 
taking--take Iraq for example--Iraqi officials to Baghdad and, 
in some cases, introducing governors to their ministers, and 
that is through the efforts of PRTs working with the military 
located in those provinces.
    Very quickly, there are some challenges. Obviously, the 
demands of the geography in both countries exceed the reach of 
the PRTs, and the PRTs are not resourced with transportation 
assets to enable them to get out and to really reach into the 
provinces in some of the remote areas. Especially in 
Afghanistan the geography is very, very tough, and it is hard 
to travel in there.
    In some of the more unstable provinces of Afghanistan and 
Iraq, security restrictions have hindered the ability of PRTs 
to do their business. In my personal opinion, some of those 
restrictions are artificial. There are civilians who are 
subject to much more restrictive security requirements than the 
military are. That not only makes it difficult for PRTs to 
operate, but it also engenders some hard feelings between the 
civilian and the military elements in the PRT.
    There is no established proponency for PRTs. Nobody really 
owns them. The Department of Defense does not own them. The 
Department of State does not really own them. The PRT concept 
has no godfather.
    Then, finally, considerable lip service notwithstanding, 
PRTs are not a resourcing priority. For the agencies tasked to 
support them, we had some real difficulties in both Afghanistan 
and in Iraq in getting people to man positions in the PRTs, 
especially from some of the civilian agencies.
    In conclusion, despite the significant challenges being 
faced by PRT members--a lot of brave men and women who are out 
there on the ground, making a difference--I think that the 
value added by PRTs to the operations both in Iraq and 
Afghanistan has been understated and, I think, underrecognized. 
I also think that PRTs--and the colleagues to my right here 
talked about civil-military cooperation at the national level. 
I think PRTs can serve as a good model. There are good lessons 
learned from PRTs that can be applied to civil-military 
relations at other levels.
    I thank the committee. I am sorry to run a little bit late.
    [The prepared statement of General Olson can be found in 
the Appendix on page 63.]
    Dr. Snyder. Ms. Hicks.

 STATEMENT OF KATHLEEN H. HICKS, SENIOR FELLOW, INTERNATIONAL 
   SECURITY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Ms. Hicks. Thank you, Mr. Chairman and members of the 
subcommittee.
    I am pleased to be here today to discuss the Defense 
Department's evolving role in delivering security and 
humanitarian assistance. Over the past year, my colleague 
Stephen Morrison and I have codirected a pretty unique task 
force on nontraditional security assistance that has sought to 
understand the evolution of Department of Defense's (DOD's) 
role and its international, interagency dynamics. This task 
force is co-led by your colleagues, Representatives Robert 
Andrews and Mark Kirk, and it formed from a simple, yet 
surprisingly unusual concept to bring together experts from the 
defense, diplomacy and development sectors to examine military 
and civilian roles in U.S. security assistance and development. 
As you might imagine, these stakeholders brought a wide range 
of experience and expertise to the problem set. The task 
force's recommendations, which are scheduled to be released 
later this month, reflect a strong majority viewpoint that 
spans across each of these sometimes divided domains.
    Since the terrorist attacks of September 11th, the U.S. 
concept and approach to global security has changed 
fundamentally. Weak and failing states, long neglected, have 
risen in priority. We understand threats to the United States 
can emanate from within states with which the United States is 
not at war; importantly, that persistent poverty can be a 
significant contributor to those threats. There is now a 
strategic imperative to devise multi-decade, integrated 
approaches that are preventative in nature. Foundational to 
this preventative approach is sustainable overseas partnerships 
that build capacity for good governance and security, that 
foster economic prosperity and social well-being, and that more 
effectively promote community-led development.
    Accordingly, we now place a far higher premium on the unity 
of effort of our foreign and national security policy 
instruments, especially defense, diplomacy and development. 
Provincial Reconstruction Teams are emblematic of this trend.
    In just a few short years, the Pentagon's role as the 
direct provider of foreign assistance has surged. From 2002 to 
2005, DOD's share of U.S. official development assistance 
increased from 5.6 percent to 21.7 percent. The Defense 
Department has assumed an expanding role in counterterrorism, 
capacity-building, post-conflict operations, and humanitarian 
relief. Beyond implementing traditional military-to-military 
programs supported by State Department funds, the DOD has been 
granted temporary authority to use directly appropriated funds 
both for prevention and for post-conflict response, 
concentrated in conflict-ridden, nonpermissive environments 
where civilian actors have difficulty operating or where 
civilian capacities are weak or absent.
    The DOD has also provided billions of reimbursement dollars 
to Coalition members, such as Pakistan and Jordan, outside of 
the formal, State Department-run economic support funds 
process.
    Meanwhile, the United States has continued to underresource 
the diplomatic and development instruments of its national 
power. All of the other panelists have pointed out the staffing 
programs and operational capacities of the U.S. Agency for 
International Development and the State Department have 
continued to stagnate at the very moment in history when 
diplomatic and development agencies should be better, not less 
well-positioned to advance the United States' new, evolving 
global agenda.
    By defaulting to the reliance on the military, the United 
States is aggravating these existing institutional imbalances. 
Compelling reasons exist, as Bernie pointed out, to give the 
DOD flexibility to provide foreign assistance in specific 
circumscribed crisis situations. Granting more permanent global 
authorities, however, does not address the larger structural 
problem and must be handled carefully, as it risks undermining 
those sustainable, capacity-building and broader U.S. foreign 
policy interests.
    To unify the U.S. Government's approach to security and 
development assistance, the task force intends to make the 
following four major recommendations:
    First, the executive branch must provide increased budget 
transparency to Congress in the form of an integrated resource 
picture of U.S. foreign national and homeland security policy. 
Wholesale revision of the existing Congressional authorization 
of the appropriations structure would require bold leadership 
and near unanimous support in Congress, conditions that I do 
not believe we will obtain in the near future. Nevertheless, 
the Office of Management and Budget (OMB) and the National 
Security Council (NSC) should be required to document more 
systematically how the foreign assistance streams for AID, 
State, DOD, and other relevant U.S. agencies fit together. Such 
transparency would help provide an accurate portrait to 
Congress of what the United States is actually spending across 
agencies to meet its most pressing national security challenges 
as well as to facilitate the creation of benchmarks to assess 
progress in meeting these objectives through various 
instruments of national power.
    Second, Congress should take steps to ensure more effective 
and comprehensive oversight of foreign and security assistance 
programs across existing committee jurisdictions. One potential 
solution much discussed would be the creation of a select 
committee on U.S. national security in the Senate and in the 
House, but simply improving coordination processes across 
existing committees might also bear fruit.
    Third, both Congress and the Executive need to elevate the 
priority attached to development, placing it on an equal 
footing with defense and diplomacy in U.S., foreign and 
national security policy. To this end, the task force is going 
to call for a significant increase in U.S. official development 
assistance and for better integration again of the multiple 
streams of development aid.
    Finally, to improve the performance of civilian agencies in 
conflict prevention and post-conflict response, the task force 
will be recommending that the next Administration appoint an 
NSC Senior Director For Conflict Prevention and Response to 
serve as a locus of interagency coordination on these issues at 
the White House level and to work in close concert with OMB. At 
the same time, the State Department Office of the Coordinator 
for Reconstruction and Stabilization, S/CRS, should be 
empowered with a larger multiyear funding stream so that it may 
lead contingency planning for the State Department and USAID in 
support of the NSC's coordinating efforts. Congress should move 
now to fund S/CRS' plans for improving civilian response 
capacity, including its Rapid Response Corps and Civilian 
Reserve Corps. Congress and the White House should expand the 
expeditionary capabilities of other civilian agencies, 
particularly USAID's.
    Before closing, I would like to very briefly review the 
task force's recommendations with respect to PRTs. PRTs are a 
potentially promising platform for integrating civilian and 
military instruments working in unique and difficult 
operational environments. At the same time, PRTs suffer from 
important limitations, many of which have been described to you 
today or in previous hearings, and we largely echo those. To 
maximize the potential PRTs, the task force intends to make the 
following recommendations:
    Advise the NSC to initiate a governmentwide process to 
clarify PRT mandate and doctrine, including agency roles in 
ownership; recommend that DOD and its civilian partners conduct 
more comprehensive strategic planning for the use of PRTs and 
create baseline assessments to identify the needs these teams 
should be addressing; recommend expanding the predeployment 
training of these interagency teams and other interagency 
teams; endorse a streamlining of USAID funds in post-conflict 
settings. AID's quick impact project funding is a good start, 
but it is insufficient, and many other resourcing streams exist 
that must be integrated; call for greater monitoring and 
evaluation of the impact of PRT projects, including from 
security, governance and development perspectives; advocate the 
development of robust civilian response and reserve corps as a 
human capital base for future civilian-military teams and 
provide them again with attendant training and participation 
incentives; and welcome the recent DOD agreement with Non-
Governmental Organizations (NGOs) on rules of the road to guide 
their interaction in insecure environments.
    I want to conclude by restating what I am sure everyone in 
this room believes. Meeting the security challenges of the 21st 
century requires the United States to march with a full range 
of instruments of national power and influence. Creating a 
whole-of-government approach and requiring the executive branch 
to explain how its budgets and programs support the unified 
national security and foreign aid strategy will substantially 
improve the Nation's ability to address the structural roots of 
poor governance, instability and extremism in the developing 
world.
    Thank you.
    [The prepared statement of Ms. Hicks can be found in the 
Appendix on page 74.]
    Dr. Snyder. Thank you all for your testimony.
    We have also been joined by Dave Loebsack, who is a member 
of the full committee, and without objection, will be allowed 
to participate after the other members of the subcommittee have 
asked their questions.
    Goodbye, Dr. Williams. Good luck to you. See you in 
Arkansas.
    By the way, she was nodding in response to some of the 
things you all were saying about PRT.
    You know, this subcommittee, this Oversight Investigations 
Subcommittee, is in a bit of a peculiar situation because we 
really have had a lot of control over what we can look at, and 
you know, when people talk about oversight or investigations, 
we think about contracts and cost overruns and all of those 
kinds of things, but there has been a lot of enthusiasm on both 
sides of the aisle of this subcommittee in looking at the issue 
of what is going on on the civilian side of our government 
because, in many ways, we see that as maybe the key to our 
success today in Iraq and Afghanistan and to our success in the 
future in other wars, and I am going to, I guess, carry that 
point to the extreme here.
    General Warner, in your written statement that we have from 
you, which I think is part of the text of your previous speech 
you referred to, you talked about the need to have, quote, ``a 
vastly empowered, funded and resourced State Department,'' not 
Defense Department but State Department, ``that only the 
Congress can mandate and make happen,'' was the end of your 
quote.
    Then, Ms. Hicks, on page one of your statement, you say, 
``Meanwhile, the United States has continued to underresource 
the diplomatic and development instruments of its national 
power of the staffing programs, and operational capacities of 
the U.S. Agency for International Development and the U.S. 
Department of State have continued to stagnate at the very 
moment in history when diplomatic and development agencies 
should be better, not less well-positioned to advance the 
United States' new, evolving global agenda.''
    Then on page six, Ms. Hicks, of your statement, you ask 
``Perhaps the key question of this is how realistic--'' I am 
quoting you ``--how realistic is it to expect that robust 
civilian capacities will actually emerge and be funded?'' end 
of your quote, and you discussed that a little bit.
    I think that issue of--we have been spending quite a bit of 
time on how that relationship between DOD and the military and 
the civilian side should work. I would think that the answer to 
your question is, if we come up with a model that seems to 
point in the right direction, we will greatly enhance our 
ability to get it funded and operational because I think there 
is really a lot of concern about where we are going.
    I wanted to ask one preliminary question, perhaps starting 
with General Warner and General Olson, and any comments the 
other two--you need to start the clock on me here. I am sorry--
want to make.
    Take a step back, and look just at the military side. As to 
the troops that we have in the military today who we are 
sending to Iraq and Afghanistan and knowing of the work that 
they are doing, the ones that are on almost a daily basis 
dealing with Iraq and Afghanistan civilians, is there more that 
we could or should be doing to prepare them for success and to 
prepare them to avoid mistakes? I am thinking of language 
skills, culture skills, those kinds of things.
    What should we actually be looking at with regard to our 
troops on the ground, the boots on the ground guys, who are 
really involved on the fighting side of it? Should we be doing 
more with an eye toward these other goals that we have?
    General Warner, we will start with you.
    General Warner. I think, as to the troop increase that is 
forecast and the existing capability of Special Forces, 
Rangers, civil affairs, civic acts and psy war, the Army soft-
power components, if you will, are fairly well-attuned.
    What they need to do is their military input to what we 
have been talking about today, and I think, with the personnel 
increase, that some of those, whether they go to Special Forces 
or elsewhere, will be able to do that. I think, if you have a 
return, though, back to where we were 15, 20 years ago where we 
had certain people dual-tracked within the military who 
basically could pop in and out of military assistance advisory 
groups, be immersed in a particular region and have a regional 
orientation and also have language training, that you could 
eventually then build a cadre of people who you could call on 
when needed to go to Bogota or to go to Lisbon or somewhere 
else and who could be used rather than waiting until you have a 
problem and then suddenly saying, ``Well, we do not speak the 
language, and nobody has been there in 25 years.''
    So there are things that can be done. Just from what I have 
heard the military say in recent days, I believe that is fairly 
underway.
    I do not worry about the military's capacity to respond to 
what is required of them on this issue. I worry a great deal 
about the civilian side as well and about the fact that the 
civilian side has a tendency, as they did in Vietnam, to go 
mufti, borrow Army, put them in civilian clothes, and then 
perform their mission. That is not a good long-term solution to 
the problem.
    Dr. Snyder. General Olson, any comments?
    General Olson. Yes, thank you.
    I think you have got to break the answer to that question 
down into short-term and long-term. If we are confused about 
what we can do right now, I do not think there is a lot of 
programmatic help--I agree with General Warner. There is not a 
whole lot of programmatic help that they need right now, but I 
would like to highlight, really, three things.
    First of all, the military is starting to integrate in a 
big way into their mission rehearsal exercises, the integration 
of soft power with their kinetic operations, and that needs to 
be encouraged and probably expanded.
    The second thing that I--and I am not familiar with how far 
this has gone, but a good ``lessons learned'' process that 
takes the lessons that are being learned in Afghanistan and 
Iraq right now about dealing with civilians and then the 
sharing that, especially with units that are going over there, 
I think is important.
    Then I am going to underscore what General Warner said. I 
think there is work that can be done right now to train key 
civilian personnel who are going to Iraq and to Afghanistan and 
who are going to work with the military to train them and to 
indoctrinate them about military culture or about processes, 
systems and that kind of thing. Just a planning process, I 
think, is a great example of that.
    Longer term--and I will not go on too much about this, but 
there are organizational issues. I think especially ground 
force formations could be modified to, let us say, capitalize 
on the potential of the integration of military and civilian 
efforts. It has to do with the manning of headquarters, for 
example, and at lower levels as well.
    Then there are some real institutional issues that I think 
need to be addressed, and that is how do we build into the 
professional development system and the military education 
system. Enough of this, the impact of soft power. Are we doing 
that enough? I think there is certainly room to improve in 
those areas. So those would be my comments.
    Dr. Snyder. My time is about up.
    Ms. Hicks, do you have any comments or Mr. Carreau?
    Mr. Carreau. I just wanted to follow up a little bit on 
what General Olson just said.
    I totally agree. I think that the civilians need to join on 
to some of the military structures and capabilities. I think 
one of the secrets of the CORDS program is that the civilians 
joined in on existing military structures because they are much 
larger; they were better resourced; also, they do operational 
things that most civilian agencies do not know how to do, like 
planning and training. So I think that that sort of thing, as 
Mr. Olson was saying, would be extremely important. I think you 
need cross-pollination on both sides, but I think that would be 
very helpful for this agency.
    Dr. Snyder. Thank you.
    Mr. Akin for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    Just sort of backing up a little bit, as to the experience 
in Vietnam, which is of interest to some of us oldsters who are 
kicking around here, did these reconstruction teams do some 
good? Apparently, from your testimony, they were doing some 
good. If they were doing good, why did we end up where we were? 
Were we on the right track and gave up too soon? Is that the 
bottom line?
    Mr. Carreau. Well, I think it is a difficult question to 
answer, and historians will argue over this.
    I think what the consensus seems to be is that the program 
itself, the CORDS program itself, achieved its limited 
objectives, but the patience still died anyway. Remember, CORDS 
was set up to defeat the Viet Cong infrastructure, so it was 
really about local insurgencies. Local insurgencies were 
extracting rents and taxes and land and grown goods from the 
local people. The idea was to win over the hearts and minds of 
those people. It was never intended to defeat the North 
Vietnamese, the conventional army. So what ultimately happened 
was it was a combination of the counteroffensive and a lot of 
the CORDS programs in all of the little villages that pretty 
much was fairly effective in defeating the Viet Cong 
insurgency, but it did not stop, you know, the North Vietnamese 
conventional army from invading the south.
    Mr. Akin. Okay. I guess the other question I had was:
    My understanding was that there is quite a lot of 
difference between the way these teams work in Afghanistan and 
Iraq. What is your impression about what we are doing? Should 
they be operating the same in both or is the situation 
different enough that they need to be different in the way that 
they are focused?
    Last of all, if you are trying to build depth, which is 
always hard for us politically to try to plan more than just 
what dinner is going to be tonight, let alone what language 
skills we are going to need five years or ten years down the 
path, how would that best be funded? You know, politically and 
logically, where would that repository--I remember back in the 
Vietnam days that my friend was in the Green Berets, and they 
were getting cross-trained in the Czechoslovakian language and, 
you know, on how to fix a dog that had its leg shot off and all 
kinds of different things, so you had people who were cross-
trained to do a lot of different things. I assume that was 
pretty expensive, and to be well prepared in terms of PRTs 
would probably be an expensive commitment as well.
    So just a few thoughts on that subject. Thank you.
    General Olson. I will take a shot at the first part of the 
question about Afghanistan compared to Iraq.
    The answer is, yes, they are different. I think the 
fundamental purposes--it starts right there--are different, and 
I think that is appropriate. The purposes are tied to the 
respective missions, and they are different.
    In Afghanistan, the purpose of those PRTs is more directly 
linked to the counterinsurgency effort of winning the hearts 
and minds, to use that term. Some people are reluctant to use 
it. I think it is a good term. So their focus is on short-term, 
high-impact, high-visibility actions, activities and projects 
directly in support of a military commander.
    In Iraq, the purpose is a little bit different. It is a 
little bit longer term, and the purpose of the PRTs in Iraq, 
very broadly, is to accomplish capacity-building to rebuild, in 
many cases, institutions that will endure over a longer period 
of time. Functional----
    Mr. Akin. For rebuilding local government or for something 
beyond that?
    General Olson. Yes, it means local government. It means 
rule of law. There are actually five pillars: Local government, 
rule of law, economic development--there is one other I am 
forgetting--and then public diplomacy. Oh, the infrastructure, 
reconstruction of the infrastructure.
    Mr. Akin. But in Iraq we are not having road builders and 
sewer builders and stuff like that.
    General Olson. No, but we are having experts who can advise 
where to go to contract for a road builder. We have got experts 
who can advise how a government should determine that there is 
a requirement for a sewage treatment plant. So it is a little 
bit more on the side of the institution building, the longer 
term, and a little bit less focused on the short-term, directly 
tied to counterinsurgency. There is obviously some slopover.
    The last point I would make is that the embedded PRTs are a 
little bit different in Iraq. They are, in fact, working 
directly for a brigade combat team commander, and they are 
focused on his counterinsurgency efforts, and they are also 
very successful.
    Dr. Snyder. Thank you.
    Mrs. Davis for five minutes.
    Ms. Davis of California. Thank you, Mr. Chairman. Thank you 
to all of you for being here.
    I wonder if we could just turn for a second to the 
international efforts because I had an opportunity over the 
break to speak with some of our NATO counterparts, and there 
was certainly a lot of frustration about the fact that we 
really are not doing a lot of sharing of information or 
necessarily learning from one another of the PRT operations. I 
wondered if you could speak to that. I think maybe at the 
higher levels there is some discussion, but there did not seem 
to be--at least it was not getting down to the folks who are 
really doing the work.
    How should we be organizing that? Even if we did, is that 
important? Is that something that we ought to be looking at if 
we are engaged in this kind of effort with our partners?
    General Olson. First, to talk about Iraq, where my most 
recent experience is, there are two Coalition PRTs from Europe. 
One is supported by Italy, which is in Di-Qar, and then by the 
United Kingdom, which is in Basra.
    I think there what you would find is that--you know, you 
are always going to find the one PRT member who has got a 
complaint along those lines, but there, I think, you would find 
that there is a sharing of information, a cross-pollinization, 
because there is an organization there that used to be called 
the National Coordination Team that is now the Office of 
Provincial Affairs. It is specifically designed to coordinate 
the efforts of all PRTs, to include the Coalition PRTs.
    In Afghanistan, at least while I was there as the CJTF 
Commander, there was no like organization that was specifically 
focused on running PRTs. It was a chain of command function.
    Ms. Davis of California. We are focusing mainly on 
Afghanistan.
    General Olson. Okay. Then I am not 100 percent current 
there, but I will speak for when I was there.
    There was no organization that was focused on PRTs and on 
coordinating their efforts. It was a chain of command function. 
As you know, in Afghanistan the chain of command's focus is 
very busy. They are focused on a lot of different things.
    Ms. Davis of California. Is that something that we should 
be at least trying to address and to understand how we can 
best----
    General Olson. I think so. I think an organizational 
improvement would be to have, in operations like this, a 
separate, I will say, headquarters, a military term, where they 
are specifically focused on coordinating the efforts and 
supporting PRTs. That seemed to work pretty well in Iraq. In 
Afghanistan we did not have it. I will admit to you, frankly, 
as a CJTF Commander, at times the PRTs were kind of an 
afterthought.
    Ms. Davis of California. Yes. Yes. I think why this should 
be important is partly for moving public opinion and in helping 
to see that this is an effort that is succeeding in some ways 
and that it is an effort that is important.
    You know, what strikes me as well is that there are a lot 
us who have had an interest in trying to pursue this question, 
and there are a lot of efforts actually going on. I actually 
did not know about the task force, and we have talked about 
trying to do a number of different things, really, to just 
bring Members of Congress up to speed and into the fold so that 
we might even see our committees as having more of an 
interagency focus, if you will, across jurisdictions--and an 
understanding.
    I think what I always come back to in some ways is, you 
know, why aren't we getting this? Why is it really taking us a 
while to get to the point of seeing that the investment, 
certainly in this interagency work, is so important? I am just 
wondering if you could--you know, why is that? Why are we 
struggling with this?
    Ms. Hicks. I do have thoughts on that.
    My view is that, if you look around this room, you will 
see--obviously, a lot of people who have spoken today and I 
know a lot of you on this committee are involved in this 
interagency working group up here on the House side, but most 
people are coming at it from a defense perspective, and it is 
very ironic in some ways that it is the defense community, the 
well-resourced, large defense community, that feels most 
passionate, really, about this issue of interagency reform. 
That is not to say there are not parts of the civilian agencies 
that feel similarly, but I do not think it is organic there the 
way it is on the defense side, and that is a real hurdle to 
overcome. I will not say you cannot have reform without it--I 
think that would be too pessimistic--but I think you need to 
have State and AID, State in particular, start to feel, again, 
organically within their own organization that things have got 
to change. Without that, you do not have, really, willing 
recipients on the civilian side where a lot of the change is 
harder to come by. They have got a harder resourcing battle to 
make, and they have got no constituency throughout the United 
States the way the defense community does. So I think it would 
be difficult but important.
    Ms. Davis of California. Okay.
    Dr. Snyder. We will go to Mr. Sestak, and that will 
conclude the folks who were here at the gavel, and then we will 
go to Mr. Bartlett.
    Mr. Sestak for five minutes.
    Mr. Sestak. Thanks, Mr. Chairman.
    If I could, maybe, give an observation and then ask your 
opinion on it. We will start with you, Ms. Hicks.
    To some degree, I have always been taken that the military 
has forces, and then there is military force, which of course 
we use in war. Military forces have been used at times from 
intelligence to logistics to help humanitarian or other self-
efforts. As I have listened to--or if I have not been here, I 
have at least perused--testimony on this issue over time, I 
have begun to kind of slightly change my mind about our moving 
to an interagency process on this, particularly as I think 
about, oftentimes, these types of what you call in the military 
a ``general's phase four operations'' that often come about at 
the end of a conflict where strife is still present or of 
concern.
    As I step back--and with all due respect to the Army 
generals--is there potentially a different model we might 
pursue much like in the Marine Corps where they are supposed to 
be light, fast, quick, in there, and where they kick open the 
door, and then the Army with its half comes in? Might we not 
accept the cold, brutal reality of the fact that the DOD has 
forces because they are so well-resourced and accept that the, 
quote, ``PRTs'' that may be initially helped to stabilize or to 
do things should be built around the DOD? They are often there 
in strife where we need these. We just do not calmly or quickly 
walk into these countries sometimes. Really, the interagency 
process is one where it is the Army's, so to speak, coming in 
afterwards, built around not trying to have them there 
initially. Maybe it is the National Guard with a bunch of armor 
that initially starts moving them toward something, because I 
am struck, Ms. Hicks, by your saying we do not have any 
interagency doctrine and that we need to institutionalize this 
and that there is lack of significant resources. Maybe that is 
okay, much like we do not tend to live by our doctrines in the 
military anyway as the Russians always told us.
    So my question is: Would that potentially be a different 
model to look at rather than this wonderful interagency thing 
that is supposed to come in? Maybe it is this quick corps 
presently built around DOD, and then there should be a natural 
transition that is ready to go but that kind of comes in rather 
than forces this in in an unknowing, strife-worn situation.
    Ms. Hicks. I definitely think the right model is that in 
the early stages of a conflict, as the security environment is 
difficult, you are going to have it be military led. And I 
think there is wide recognition that that is the way you have 
to go at the problem and then transition into a civilian led. 
And of course, I defer to my military colleagues on how they 
sense the time is right to make that transition. But having 
said that, I think it is very important not to lose sight of 
the idea that the military is not always the right face. Even 
if you said well, we want to build all the right skills into 
the military, we are going to focus on the military, give them 
all the right skillsets, which is a good thing to do.
    The problem is, if you then come to rely on the military as 
your instrument, that is not the face of development in foreign 
policy that other countries or other individuals in countries, 
populations, want to see in their nation. And it alters the way 
our foreign policy then is presented overseas.
    Mr. Sestak. But for that quick rapid opening, like the 
Tsunami report, our military probably got better play, and I 
saw all and purposefully went to see the foreign press, and 
gave more of a positive face to our military than we garnered 
in Iraq. So I understand the long-term implication as to what 
you are saying, but I am talking about opening that door.
    Ms. Hicks. I completely agree. In our task force report, as 
an example, we look at humanitarian assistance as one of our 
core issue areas. And we end up strongly endorsing the way in 
which we currently have a civil military division of labor, for 
lack of a better term, on humanitarian assistance. The military 
can get there faster often, they can bring resources to bear. 
And that is a good thing. It is a great public diplomacy 
approach, it is a great true humanitarian effort. But in the 
long run when you have to transition that into sustainable 
development, that is not where the Department of Defense is A, 
trained, or B, necessarily the face you want to put forward.
    Mr. Sestak. General, comment?
    General Olson. I would say that I agree with what Ms. Hicks 
said. But I also think that if, in fact, the type of missions 
that you are talking about are going to become core missions 
for the military, that is going to require some culture 
changes. There is a real controversy in the military. I don't 
speak for the military, but there is a controversy about 
whether or not, you know, whether we do windows, do we do 
nation building. Even in the opening phases, some of these 
things can amount to nation building.
    So if, in fact, the military buys into that, then there are 
going to be organizational changes they need to make. And there 
is definitely some resistance, as this committee is probably 
well aware. And then it flows from there; doctoral changes, 
provincial military education changes, equipment changes and on 
and on. So though I might agree that this is a good approach, 
to do this across the military would take some effort.
    Dr. Snyder. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you for your testimony. A day or two 
ago, I was reading a reprint on Early Bird of an op-ed piece. I 
forget which newspaper it appeared, which said that Iraq was 
the third most corrupt, I forget whether it said country or 
government in the world. When I read something like that, I am 
always curious who the heck is number one and two, you know.
    General Olson. You may not want to know the answer to that 
question.
    Mr. Bartlett. Yeah, I do want to know the answer. Who is 
number one and two? They said that like everybody ought to 
know. I thought gee, maybe I just wasn't on the know on this 
thing. Who do you think they might have had in mind as number 
one and two as one of the most corrupt countries or government 
in the world?
    General Olson. It might have been Russia.
    Ms. Hicks. I think Somalia might be up there.
    Mr. Bartlett. Somalia and Russia? Okay. I will check to see 
if that is what they had in mind. They said that a third of all 
of the money in our grants and contracts in Iraq just disappear 
or are stolen. That is about right?
    General Olson. My current position is working as the chief 
staff of the special inspector general for Iraqi 
reconstruction. I am not here in that capacity. But just based 
on my general knowledge, that is probably a good figure. It is 
a very hard figure to estimate. But about a third is probably 
not overstating the problem.
    Mr. Bartlett. It just disappears or is stolen. Do we have 
an opportunity to help them understand that this is not 
productive, that at the end of the day, they will be better off 
if they can somehow control this, or do we just have to accept 
this as a part of the cost of doing this kind of business?
    General Olson. I think some of it is the cost of doing 
business in an area where there are tremendous security 
challenges in where you have got a government that is not 
transparent, that is developing, actually being built in some 
cases. But some of it must be addressed. I think Prime Minister 
Maliki has made that one of his top priorities. He calls that 
the second war, the war against graft and corruption. There are 
organizations, the Board of Supreme Audit inside the Iraqi 
Government, that is specifically focused on graft and 
corruption. So the problem is recognized. It is debatable 
whether or not recognition translates to actual action.
    Mr. Bartlett. Help me understand the reason for this 
problem. In many countries in the world, we have a lot of 
corruption simply because they don't pay their public officials 
enough. And if they are going to feed their family, they have 
got to be blackmailing people and so forth. Is that the case 
here? Is this just a way of life in that country, that if you 
have a job that is what you do, you steal and so forth?
    General Olson. The Iraqi Government has a remarkable record 
in terms of budget execution. It is remarkable because of how 
poor it is. One thing they can execute, however, is their 
operating budget. In other words they pay salaries very well. 
So I don't think it is a case of government officials who are 
starving on the street. I do believe that there are government 
officials in fairly high positions who are corrupt and on the 
take. They have been historically in Iraq, and I believe that 
continues to be a problem.
    And then some of the money disappearing is not necessarily 
disappearing into Iraqi pockets. As you well know, Congressman, 
there is ample evidence about corruption in fraud, waste and 
abuse that is attributable to international entities that are 
working in Iraq, some of which are American.
    Mr. Bartlett. I am concerned that we not be seen as a 
supporter or facilitator of this kind of thing. Is this such an 
ingrained practice in their country that it is probably 
inevitable and there is darn little we can do about it unless 
we plan to stay there for 50 or 100 years?
    General Olson. I think you would get varying answers to 
that question. There are differences of opinions. I am an 
optimist, and I think that the more developed the Iraqi 
Government becomes, the more they are supported by the Iraqi 
people, the more transparent they become, and the more measures 
that are put into place to ensure that they are transparent, I 
think that the graft and corruption problem gets better. Let us 
face it, they are a Third World nation, and graft and 
corruption are a sad fact of life in virtually all Third World 
nations.
    Mr. Bartlett. I thank you very much. Thank you, Mr. 
Chairman.
    Dr. Snyder. Thank you, Mr. Bartlett. We will now go to our 
two representatives who are not a member of the subcommittee in 
the order in which they came. And Dr. Boustany is recognized 
for five minutes, and then we will go to Mr. Loebsack.
    Dr. Boustany. Thank you, Mr. Chairman. I appreciate you 
extending the courtesy to me. And I want to commend you on this 
hearing. This is an excellent hearing. This whole issue of 
post-conflict stabilization is something I developed an 
interest in about two years ago. I have been reading 
extensively on it in books and papers by a council on foreign 
relations, some work done by General Nash, General Rupert 
Smith's recent book, The Utility of Force, where he talks about 
deployment versus employment of force. And what is remarkable 
as I go through this, I remember reading Churchill's first book 
in the 1890's where he described his deployment in the Swat 
Valley where we are currently seeing problems.
    And he decried the lack of political expertise on the 
ground to complement the military expertise and that they were 
constantly trying to quell these rebellions, but yet they 
couldn't get long-term stability because of a lack of a 
civilian political component. And here we are, we fast forward 
and we see a State Department that has 6.5 percent of the 
funding that the Department of Defense has. We have currently 
about 6,000 foreign service officers worldwide, which puts us 
about on par with the United Kingdom today and yet we are a 
superpower. And Mr. Carreau's testimony indicated we had 8,000 
personnel in Vietnam alone. So we don't seem to learn from 
history what we should be doing.
    This testimony was excellent. And I think the order of 
testimony was just perfect as well. And you pointed out many, 
many things that we need to do. And from my reading, what you 
have pointed out today corroborates everything I have read. It 
is astounding to me that there is all this information out 
there in the think tank community, yet Congress is not acting 
and our Administration has not really worked in that regard as 
well. And so clearly we have got problems in Congress with 
stovepiping our committee structure and so forth, which Ms. 
Hicks, you offered some recommendations which I think are 
excellent.
    One of the things that strikes me, I spoke with Barbara 
Stevenson starting back in December about PRTs in Iraq. And I 
have been talking to her on a regular basis about how is it 
going with the different phases. And particularly phase three 
with the backfill has been very difficult in mobilizing the 
civilian component and having a reserve force. So this is 
clearly something that you all addressed and it is something 
that needs to be looked at. One question I have for the panel 
would be instead of trying to put together ad hoc PRTs, should 
we have PRTs or some sort of equivalent put into place that 
participate in the scenario planning, contingency planning, so 
that we don't get into certain difficulties late into the 
crisis, and that we avert a crisis with that type of expertise 
and planning and so forth? And I open it up to the panel for 
their comment.
    Ms. Hicks. I will start. I think from what I understand of 
what Ambassador Herbst is attempting to do at the State 
Department Office of the Coordinator for Reconstruction and 
Stabilizaiton (S/CRS), that is exactly the plan. And they will 
require the Department of Defense's openness to their 
participation in their planning process. But also S/CRS needs 
much more empowerment to run an interagency planning process as 
they are chartered to do for post-conflict and stabilization 
issues. But the idea is that you will have, if you follow the 
model they are attempting to put in place, a standing civilian 
response capability of U.S. Government employees.
    And then two tiers beyond that, the last of which is the 
civilian reserve corps, which I think most people have heard 
because it was in the President's State of the Union Address 
that is calling upon--it is a reserve model like the military 
has. It calls upon folks in every day life who have skillsets 
to provide to be pulled into service when we have more time. 
But inherent in that whole model is planning well before you 
are actually in a contingency for how you are going to use 
these forces. And under the Clinton Administration, there was a 
process known as Presidential Decision Directive-56 (PDD-56), 
which was both a directive and then it directed a process for 
how one plans in peacetime for these events.
    There is a follow-on National Security Presidential 
Directive (NSPD) in this Administration for the same thing. And 
I think inevitably what you really need to move to is that sort 
of standing peacetime, if you will, process of planning.
    Mr. Carreau. I would just like to follow up on that. I 
absolutely totally agree with everything Kathy has said. I 
would make a couple of other observations. One about PDD-56 
which a lot of folks are looking to as a model. It is an 
interesting document. It was written though for peacekeeping 
operations. It was, you know, at the time it was the Balkans, 
it was Kosovo, Haiti. And the instruction to the PDD-56 
actually talks about it wasn't intended to apply to armed 
conflict. Again, I draw a sharp distinction between a 
peacekeeping operation and a war zone where the U.S. is itself 
a belligerent. I think that requires a different level of 
planning. But as Kathy said, S/CRS is working on this issue. I 
would actually like to see it go maybe even a little bit 
further.
    And I want to follow up on something that you started with. 
The civilians, I believe, do need to be involved in the 
planning and it needs to be steady state. Again, I think this 
is something that needs to glum on to the military system that 
is already there. Civilians with the Combatant Commanders 
(COCOMs), this sort of steady state, very top secret planning 
that is going on, that is when the civilian agencies need to 
get involved.
    Mr. Boustany. One thing I thought about----
    Dr. Snyder. Charles, your time is expired. Let us go to Mr. 
Loebsack and then we will go around again. Mr. Loebsack.
    Mr. Loebsack. Thank you Mr. Chair. I will be very brief. I 
just have a couple basic questions. And I missed the--and I 
apologize for being late and missing some of the testimony. But 
in particular, I guess I just want to ask General Olson, in 
your testimony you mentioned that on page six the establishment 
of measures that reflect true outcomes, that is the actual 
impacts that PRT operations have had on achieving large 
coalition objectives has been an elusive goal. I am new to the 
Congress. I hear a lot about--I am a former educator. I taught 
at a small college in Iowa. My wife taught second grade. I 
heard a lot about outcomes based education, I heard a lot about 
accountability, I heard about that before I got to this office, 
I have heard a lot about it since I have been here, I have been 
to Iraq a couple of times.
    I am very concerned about measures. The military has 
developed certain kinds of measures obviously to sort of 
indicate to us that as a result of surge, we have seen a 
significant decline in violence in Iraq. I get very frustrated 
when I read something like this because I really want something 
that I can sort of wrap my head around as far as what these 
PRTs are accomplishing if anything, especially in Iraq. And I 
think I was, when I came I think there was reference to the 
sort of economic development, political development, military 
success and all the rest. I remember when I first got here, we 
had in the Armed Services Committee, the large committee, we 
heard from a number of our military folks about sort of the 
three-legged stool. And maybe that is what was being referenced 
when I came in, I don't know.
    Economic development is hugely important obviously. Can you 
talk to us about any other sort of more concrete measures, if 
there are any, because you have a few examples here of 
successes, but it is kind of loosy goosy for me in some ways. 
Sorry about the slang.
    General Olson. I will use an educational metaphor, 
Congressman. You can measure the number of hours that a student 
studies, input measures, and make some determinations about how 
conscientious a student is, or she is. You can measure how that 
student does on tests. The grade or the score that they get on 
an exam. That is an output measure. But how do you really 
measure whether or not that student is becoming a better 
person, better mathematician, better political scientist? 
Grades won't do it for you. And so I turn that question back to 
you. I would be interested in talking about how you did that.
    What I will say is this: We have wrestled really hard with 
PRT measures that really mean something. And so good 
governance, let us take that as an example, in Iraq. We have, 
in fact, reported the number of government officials at local 
levels that we have trained. I am not so sure that that is all 
that good. Then we went to output measures. How many successful 
council meetings did they hold in a given period of time? An 
output measure again. Very problematic from all standpoints. 
But then we went to things like asking a question what do good 
governments really do, can they execute a budget, can they pass 
laws, can they stand up entities that we would consider to be 
associated with a good local government? And we try to capture 
those.
    I will tell you that there are some problems with doing 
that, as I am sure you are well aware. There is a causality 
issue. Does the fact they can execute a budget, is that 
directly related to anything that the PRT did or was there some 
other factor that is involved? So I would say, I would stand on 
my statement that it is still an elusive goal. But I will tell 
you it is getting better and better. The last thing I will say 
on that is one of the measures I used was getting out there and 
seeing what was going on and talking to Iraqis in the streets 
and saying, how do you feel about your local government, are 
they doing better, are they doing worse? And the other thing I 
did is talk to local military commanders. You can think what 
you want about this measure, but the military commanders are 
impressed with and very much rely upon their PRTs in their 
overall effort.
    Mr. Loebsack. I appreciate that. And I realize that there 
is nothing systematic that is going to come from this any time 
soon, in all likelihood. But I get very concerned about sort of 
anecdotal evidence and then using that one way or another in 
what still is a political argument about whether we ought to 
stay in Iraq and for how long and all the rest. So it is just a 
concern I have and thank you very much and thank you, Mr. 
Chair. I will turn it back.
    Dr. Snyder. Thank you, Mr. Loebsack. We will go a second 
round if you got the endurance, of course. I want to ask Ms. 
Hicks this question because you say both Congress and executive 
need to elevate the priority attached to development and place 
it on equal footing with defense and diplomacy in U.S. foreign 
national security policy, and I agree with that.
    What I find, I guess, frustrating right now, if you asked 
probably about everyone that is in the Congress what do, you 
think is one of the top one, two or three issues, it would be 
immigration that concerns the American people. In the view of a 
lot of people, that issue will never be solved for this country 
until Latin and Central America are economically developed. 
That as long as we have this incredible economic engine up here 
it is going to draw in people who want to support their 
families and do well?
    So you would think that kind of development issue would be 
part of our answer to immigration. But I think Americans have 
gotten pretty frustrated through the years, maybe not 
justifiably so with the impact that U.S. development dollars 
have on other countries. But I'll ask you one specific question 
and you can comment on that if you want.
    I have gone back and forth about whether I think that the 
answer to this inter-agency deal is like one big Goldwater-
Nichols-type process that you talk about, or more, just a 
series of legislative actions, executive actions, that we are 
more on the spirit of nudgings on different bills kind of on 
down this road that recognizes perhaps this is not just one big 
magic bill that's going come up and solve our problems. Where 
do you come down on that given that you make some very specific 
proposals that would indeed take both legislative and executive 
action.
    Ms. Hicks. I hope you'll indulge me answering both of 
those, because I just returned from Southern Command (SOUTHCOM) 
last week.
    Dr. Snyder. Maybe it is just my ears, Ms. Hicks, your 
microphone----
    Ms. Hicks. I just returned last week from SOUTHCOM, and as 
you probably know, they are undergoing sort of a transition 
there under Admiral Stavridis in trying to raise the profile, 
both of Latin America, but also the sort of the mixed smart 
power hard and soft power approach that the military is 
attempting down there. And they are explicitly actually 
attempting to tie the issue of immigration.
    So I would just encourage you to speak a little bit to them 
about how they are thinking about the importance of development 
and creating noncorrupt, nongang-ridden sustainable societies, 
not as a military instrument alone, but as part of a whole 
approach from the U.S. Government, and how they think that they 
can sell that, if you will, because of the immigration link.
    So I think you're really on to something there. On your 
second question, you know, I think, I tend to think I was 
trained as a strategist in the Department of Defense, and I 
tend to think in a systems level. And as a systems kind of 
person, I prefer to think of it as putting all the solutions 
set out there together and understanding the whole concept. I 
think there's a lot of value in that.
    Having said that, I think the reality is that you have to 
make progress piece by piece sometimes, but I don't think the 
two are mutually exclusive, I think they are mutually 
supporting. I think in the environment we are in today where we 
don't have broad-based support for inter-agency reform, or at 
least there doesn't appear to be. Where we can make change we 
should; there are small specific changes we can make that are 
important, particularly the executive branch about its 
business, if you will, and the Congress about its business. I 
think good leadership on both sides can lead to internal 
reforms that really help.
    Having said that, I do think at some point there is going 
to need to be a holistic look at the national security process, 
at the structure we have, at how we train our people and how we 
populate our organs of government. And that change is coming. 
It is just a matter of when there is openness to it.
    Dr. Snyder. Do you have any suggestions on how that 
holistic look might come about? We have one oversight 
investigation subcommittee, and I think we are the only game in 
town right now in terms of the legislative side of things that 
is looking at this in any systematic way.
    Ms. Hicks. I belong to an organization that has done 
several such looks beyond the Goldwater-Nichols effort and I 
won't talk more on those. I am also part of what I think some 
of you are familiar with the project on national security 
reform, which is seeking to gain funds to do just such an 
approach.
    And we are divided into seven working groups that look 
across issues of resource. I lead the process group. We will be 
looking at strategy and planning across the inter-agency. There 
are groups who are looking at the structural elements and so 
forth. Groups that are within that who might look at Congress 
and see how Congress might play into this. That effort, again, 
it is waiting for funding, it was funded in the appropriations 
bill. It was funded on the defense appropriations. We are 
waiting to see if the Department of Defense picks that up. I 
think some of the reluctance again is that it is all coming on 
the defense side. It is the defense community that has been 
interested; it is defense who would have to fund it, and there 
just doesn't seem to be the same ground swell--there is in the 
intelligence world and there is, to some extent, in the 
homeland security world, but not in the State and AID world.
    Dr. Snyder. Mr. Akin for five minutes.
    Mr. Akin. Could you speculate as to why there isn't the 
interest or support in the State Department particularly? If I 
had to point to places where I would do things differently 
having been in Congress now seven years and taking a look at 
what's happened in Iraq particularly, I think my, probably I 
would want to change things in State more so than things that 
the military did, per se. Why is it State doesn't have an 
interest in that?
    Ms. Hicks. Well, first I wouldn't say that all of State 
doesn't have an interest, but I do not think there is again 
what I would call a ground swell of support from the bottom up. 
And.
    Mr. Akin. Is it partly because they are not engaged and 
involved and don't see the need as obviously as Defense does? I 
mean, Defense has to live with it every day. State has got all 
these different places in different countries and they go there 
for couple years and then they go to another one. They are not 
seeing what is happening, is it that?
    Ms. Hicks. No, again, I am really speculating, but I will 
give you my thoughts on that. Part of it is that they are very 
beleaguered, they are small and they are underfunded. And when 
people say you need to change, they take that as not--you need 
to change in the sense that we are going to resource you more. 
They take it as, oh, great, one more complaint about how we are 
not doing not enough with too little. So I think that is part 
of the issue.
    I also think there is a basic cultural difference. I think 
the Defense Department, and actually PRTs are, in some ways, a 
good example of this. The culture of the military as I have 
observed it over my time at DOD, is to have a very can-do 
attitude. If there is a vacuum, they are going to try to fill 
that vacuum, very whether the best instrument or not, even 
knowing they are not the best instrument. They know there is a 
void and it has to be filled, so that is a very leaning forward 
attitude, very can-do attitude.
    So I think, the same thing is what you are seeing with DOD 
on the inter-agency piece, and Secretary Gates' recent speech 
was a good example of this; things are broken we need to fix 
it, and that is the military way.
    My observations on the State Department side are more 
cautious. They are just trained differently. They are trained 
to find the right tool for the right job. They need to define 
what the problem is and then fix the problem. And that is a 
very different and more cautious approach that takes longer to 
get to the solution set.
    Mr. Akin. Anybody else want to speculate?
    Mr. Carreau. I would like to offer just a few thoughts. I 
agree absolutely with everything Kathy said, and many of us are 
looking at these issues. I wrote a case study at the National 
Defense University (NDU) on the formation of S/CRS and sort of 
the international problems and bureaucratic issues that arose 
within State and within other agencies. There was contention 
with AID as well.
    I agree with Kathy, it is largely an issue of agency 
culture. It is how they think, what their core missions are. In 
some ways, it is almost an odd thing to ask a diplomat who is 
trained to do conflict prevention and to negotiate and to 
prevent problems from occurring to plan for post war 
stabilization. Obviously, if war or conflict breaks out and you 
are a diplomat, something has gone horribly wrong, and it is 
just sort of contrary to the way they think. So I think you 
have to overcome that cultural barrier first.
    General Warner. Just to add one point. State definitely is 
not an operational agency. They report on what exists, but they 
really don't try and get down at the provincial or district 
level and do much about it in X country. I do think, though, as 
the ambassador being the direct representative in country X, 
that one of the better ways to move forward is to strengthen 
this country teams, straighten the mag, strengthen the mission, 
so he has more wherewithal to work in the country. Then that 
feeds back into the government as a better assessment of what 
is needed. In my sense, if you have to deploy conventional 
forces into country X then the ambassador of this country team 
has failed.
    Mr. Akin. I didn't hear any of you say that the thing that 
first springs to my mind, but maybe just looking at it more 
from a political point of view, I think of State Department as 
always a bunch of commies that are working at Foggy Bottom and 
everything, and I don't trust them too much. I have a little 
bit more confidence in the military, they'll go solve the 
problem. I am drawing a caricature to a certain degree. I am 
just wondering whether or not the sense that State sort of 
perspective in what we should even do in a country may be 
different than what we are talking about. So it is maybe beyond 
a culture, it is almost a political mindset.
    General Olson. It is interesting, just based on my recent 
experience, the younger foreign service officers that come into 
the field going to what General Warner said, they have this 
sort of operational mindset and they jump into these missions 
because they believe in them. Some of the more senior foreign 
officers keep this whole business a little bit more at arm's 
length. I don't think it is because they are not patriots or 
they don't agree with the mission. I think it is a combination 
of what everybody said here, they see their role differently. 
Plus they have not been--they have come up through a system, a 
professional development system, an education system.
    Mr. Akin. That has not encouraged that.
    General Olson. Exactly. It is focused on diplomacy. It is 
not focused on stability and security operations.
    General Warner. On the other hand, if you look at Vietnam 
you have Ambassador Holbrook, Ambassador McManaway, Ambassador 
Wisner. There are about eight or nine ambassadors either 
currently serving, or recently serving who are 6s and 7s in the 
mid 1960's to beginning of the 1970's performing in an 
operational capacity and running accords for Ambassador Port. 
So it is possible.
    Ms. Hicks. I just want to add one very concrete thing, 
which is in the military you have a practice of doing lessons 
learned after action reports; you have a self-reflective 
professional development approach where you come out of the 
service periods of time when you are an officer to spend some 
time in a think tank or at a war college. And that has a big 
impact in how reflective the military is on its own need to 
adapt. It makes it, as much as we all decry the lack of 
adaptation sometimes, relative to other agencies of government, 
it is much more adaptive. You don't have a parallel like that 
for State.
    Mr. Akin. Thank you, Mr. Chairman.
    Dr. Snyder. Mrs. Davis for five minutes.
    Ms. Davis of California. Thank you. And maybe we can just 
continue this conversation. I was watching the General. It 
looked like you wanted to say a few things in response to the 
State Department role as well. Part of the problem is that 
there is a bias against soft power I think. I heard someone say 
it should be smart power, not soft power. But there is kind of 
that built-in bias. And yet at the same time, it seems like so 
much of what we anticipate of our role in the world is based on 
that effort. And I don't know, is that a correct assumption?
    I mean, because I am hearing that even among our NATO 
friends, that they think they don't do civilian very well 
either. You know, that somehow we all have to try and find a 
better way to use this capacity, which I think we have. We just 
haven't utilized it very well. Everything seems to be, at least 
from here, we see it as much more DOD centric than probably I 
hope that we might see that in the future. Could you comment on 
that?
    General Warner. I think you have already identified it. The 
Army, the Navy, Air Force, Marine Corps, they will fill the 
gap, they will do the job whatever it is. Even though they may 
be a volunteer service and the sergeants didn't really 
volunteer to come in and figure out how to move trash, they 
want to defend their country, that is the reason they are 
there, if they are told to figure out a plan in Baghdad to get 
rid of trash, they will do it and they will do it and they will 
do it as well as anyone in the world.
    Whether you have a big enough army and whether you can 
continue to get people to reenlist for that and whether they 
are the right structure to do that, that is a completely 
different issue. And my feeling is that the soft power, or 
smart power, really needs to be shaken a bit to pick up that 
mission, take that pressure off the Armed Forces, who really 
have too few to do the missions they have now and do it well, 
but from another agency, another approach.
    Ms. Davis of California. You suggested the department of 
stability in your comments.
    General Warner. If you have to get the mid level people out 
from other care worn bureaucracies in order to permit them to 
do a job they know how and will do, then create another 
bureaucracy. Not necessarily another homeland defense. I don't 
think that mixture is good enough. But I don't think we are 
talking about that many people that have to come from the 
various agencies or expand aid as the operational arm of the 
State Department to be able to do development as we are talking 
about. It doesn't take that much. But it does take somebody at 
the top to drive it.
    Ms. Davis of California. One of the questions I think we 
have asked a few times in this committee is where do some of 
these individuals come from? And I think part of the answer has 
been, well, you know, they are really out there and it is just 
a matter of trying to, I think, provide the opportunities 
perhaps in some cases, but at least build something that is 
sustaining. And it seems to me that one of the things that we 
haven't discussed very well, partly because it is a long-term 
solution, is how you incentivize young people in school to 
think about going into a field which maybe they don't think 
State Department, they also aren't thinking military. But they 
maybe would think along Peace Corps lines or something. And we 
haven't done that. I am just wondering, is it the Peace Corps 
model that you think is good? What model out there that we have 
utilized or internationally has been utilized that we ought to 
be thinking about in a long-term way?
    Mr. Carreau. Well, it is a difficult issue, and many of us 
have been grappling with this. I think most of us would agree 
it is a problem of core mission. When you look at stability 
operations, it doesn't belong to anyone. And in my more cynical 
moments, I would say that no one really wants it either when 
you go around all of the agencies, and that is a problem. And 
it hasn't been given. It hasn't necessarily been put on 
anyone's plate. The military gets stuck with it.
    As General Zinni has said, we have become the stuckee. But 
it doesn't mean that they actually want to do it. I think that 
there is a lot of movement afoot right now, as Kathy was saying 
and General Olson was saying. The President has signed a 
national security professional development executive order. And 
this idea sort of that you would develop a cadre in all of the 
agencies who would specialize in national security issues. And 
maybe it is going to be post-war stabilization, maybe it will 
be a Katrina type event. But where you need the Department of 
Transportation, you need Commerce, you need Justice, you need 
Labor to get involved. Mr. Chairman you were asking earlier 
what is Congress' role. Many of us have talked to Jim Locker, 
who was involved at the time of Goldwater-Nichols I. And that 
was complicated enough dealing with just one congressional 
committee; two in both Houses.
    To do sort of a Goldwater-Nichols II might involve as many 
as six or eight committees. But I think at the margins we don't 
necessarily need to change that much. If you could create some, 
and I don't know what the percentage is, maybe it is two 
percent, maybe it is three percent. But if all of the agencies 
and if all of the congressional committees could mandate that 
all of the domestic agencies, what I call the domestic 
agencies, the Commerces and Justices out there, as opposed to 
the foreign ops agencies, to have some kind of a national 
security focus such that when there is an emergency, when an 
Iraq comes along, when an Afghanistan comes along, Commerce, 
Justice and Treasury and Labor has some small contingency, and 
maybe it is only 100 people, who have been specially trained, 
they have exercised with the military, that is their job.
    You can't convert USDA into a foreign agriculture 
development organization. Obviously you can't do that. But you 
can take small portions of it and have them specialize in 
agricultural development and overseas contingencies.
    General Olson. If I can just, there really are two models. 
The one is the one the chairman mentioned about nudging various 
legislative pushes. That is certainly one of the models, one of 
the courses of action. The other is very much along the lines 
of what Bernie was talking about. I think the need is 
recognized. I think the basic requirement is what gave rise to 
this war czar concept. Now, there is all sorts of--that has 
evolved as it has for lots of reasons. But there was a 
recognition that somebody needed to be in charge when it came 
to integrating the civilian and the military effort. Now, the 
problem of a war czar ad hoc, he is not empowered. He is a 
great guy, a great military professional. But he cannot make 
these things happen. Now, I think there are models. 
Governmental models of standing organizations that can kind of 
care for the integration of civilian and military effort on a 
continuing basis. That is what it is going to take. Because it 
is going to take doctrine, it is going to take education, it is 
going to take training. And we can't just, all of a sudden, do 
that when a crisis breaks out. So the other model is a standing 
organization. And there are, you are more familiar than I am 
with what they are, but there are models that integrate a 
multi-developmental effort in other areas that could serve 
perhaps as a model.
    Ms. Hicks. The only thing I would add is that we have sort 
of evolved a little bit in answering the question, but I want 
to stay on the line we are on, which is if you look at the 
problems the United States faces as it moves in the future, it 
is not just stabilization, they are all complex. Almost all of 
them are multi-agency. We are not going to be able--you know, 
we can pick and choose particular issues that are so important 
that we are going to create an organization, a standing 
structure to deal with them, and that is fine. But what we 
really need overall is to have a different approach to our 
problem sets. We have to understand that organizations need to 
be working across them. That we need to have more horizontal 
integration approaches. The National Counterterrorism Center 
(NCTC) is one example that really, I believe, was not empowered 
effectively to do what it was asked to do. But if empowered 
appropriately, if able to go above and beyond what the cabinet 
agencies can do independently and really break that sort of 
what becomes a resource budget lock that the cabinet 
secretaries have, then you start to see well, maybe there are 
ways to get into that interagency space and empower individuals 
in organizations or collective units of people to look at 
prioritization across basic missionaries.
    And it is very much along the lines of what DOD is looking 
at internally in terms of capabilities. Portfolios, for 
instance. A whole sort of, you think about that interagency 
wide, a portfolio approach to how we look at national security 
would be very useful.
    Dr. Snyder. Thank you, Mrs. Davis. The issue of the--I 
forget who I was talking to. It may have been Mr. Armitage who 
we were having a conversation about some of these issues. And 
he said it is just real hard from the State Department side. 
The word goes out they need 200 people and they have got to 
have these specialties, these specialties, these specialties. 
And it means when you are pulling them, it leaves work undone 
in Uzbekistan and Bulgaria, wherever it is that you are working 
on it. And I suspect if we would take what you say, Ms. Hicks, 
and General Warner said and others are saying about the under--
pretty dramatically underresourcing of the State Department and 
do a little bit of a carrot and a stick, which is we are going 
to recognize that and do a fairly dramatic increase in budget, 
which will reflect staffing.
    But as part of that there has got to be a sense of some of 
these people are going to be a bit redundant and they will be 
available, don't be surprised if one of your two ag people get 
pulled to go someplace else. I would think that that is really 
hard to do right now when they are underresourced.
    I wanted to ask two final questions. And if Mrs. Davis has 
any final questions. The first one, Ms. Hicks, on your upcoming 
task force report, you talk about your four main 
recommendations. And we talked, I think, about one of them, the 
issue of development. So it is the other three I want to at 
least touch on. This issue of an NSC senior director for 
conflict prevention and response to serve as the locust of 
inter-agency coordination on these issues in the White House.
    And then you also talk about the importance of having 
better congressional oversight and following. It is hard for us 
in the Congress to do oversight of NSC. They are not required 
to testify. They are Presidential advisors. If that is where 
the game is going to be, we might as well say let us put money 
into a black box and we don't ever see it until we evaluate 
years after what happened to it.
    I don't see how that is going to work in terms of practice. 
Why are we choosing somebody within the NSC? Now, in defense of 
that approach I talked to one former Secretary of State about 
this whole issue a few months ago who said we don't need to do 
interagency reform, it is supposed to be the NSC. They just 
need to do their job. If they would recognize that they are the 
ones who should be putting all this together. How is that going 
to work when, in fact, it will not be something that we will 
have any impact on.
    Ms. Hicks. Right. The thought there is that if you have--
basically it takes what is S/CRS's, well, sort of mandate now, 
and moves it up to the National Security Council level to give 
it higher visibility, to have to the extent that the President 
endows that senior director with his confidence or her 
confidence and trust, it gives that person an ability to look 
all the way across the inter-agency and as you quoted, act as 
the NSC ought to act.
    But that does not mean that you lose oversight of what it 
is seeing. All it says is that the executive branch's 
activities need to be coordinated. And to coordinate that that 
is the role of the NSC, and it ought to be elevated to an NSC 
position. The individual pieces that support that and how they 
are put together is still absolutely under the oversight of the 
Congress. It is under the oversight of various jurisdictions.
    Dr. Snyder. Looking ahead, doesn't that put us, if I 
understand what your suggestion is going to be, I recognize 
this is one of about three sentences of what I suspect will be 
a fairly lengthy discussion, doesn't it put the Congress in a 
position to say, well, we have got the person in the State 
Department sitting here, I got the person in the DOD sitting 
here, and we have got a problem in country, why are you all not 
coordinating?
    And they both say, well, we did our part, we did what the 
NSC asked us to do and we don't hear from NSC. The buck has got 
to stop somewhere. I would say it stops at the President. That 
is how it operates. But I was thinking we would end up with 
some kind of a body that we have more--that there is a trail 
that we can follow. You talk about having the big joint 
committee or some kind of select committee on U.S. national 
security. But we can create all the committees we want to. If 
we can't get at the person that you designate as being 
ultimately responsible to have to be held accountable for 
decisions in that interagency process I am not sure we are 
going to accomplish what you are hoping to accomplish by these 
changes.
    Ms. Hicks. I think the more radical approach again is the 
NCTC model. If you wanted to, you could create an organization 
that sits in interagency space and that has authority over the 
various cabinet agencies to coordinate and to prioritize, if 
you will, budgets. It is sort of the drug czar approach, but 
taken to an organizational level and placed outside of the 
White House. And that is, I think that is a more radical 
solution.
    You could look at the problem as getting it set up 
appropriately so that other agencies do recognize it. The fact 
of the matter is today in the system in which we operate there 
is only one organization that the foreign policy communities 
even sort of recognize as perhaps above them. And that is the 
White House. And the fact of the matter is that is the National 
Security Council. So it has to come. It has to be the National 
Security Council. Again, not just stabilization, but across all 
areas that is trying to coordinate and bring these issues 
together.
    Dr. Snyder. But my concerns are not off the mark about 
that?
    Ms. Hicks. No. The fact of the matter is if you wanted to 
call witnesses, you are right. You would get the rep from the 
Defense Department and the rep from the State Department. You 
would not get that one view. And they would just tell you what 
they are supplying upward.
    Dr. Snyder. I wanted to, my final question is very quickly, 
the one piece that is sitting out there that potentially 
addresses some of these concerns is the President's proposal 
for a civilian reserve corps, the money has been appropriated, 
the legislation hasn't been moving it, but would you quickly 
talk about what you think about that proposal and where it fits 
in and do we need to move ahead with it in an expeditious way?
    Ms. Hicks. I strongly support it. I think the Congress 
needs to move forward in an expeditious way. And frankly it is 
not a one-shot issue. There is going to be a need to grow that 
capacity beyond what has been requested for this tranche over 
time.
    General Olson. I support it too. And it is based on 
experience. When we went to expand the so-called civilian 
surge, expand the PRTs and the number of people serving there, 
we were looking for people with specific specialties. And there 
is no data bank we could really go to for who was an expert in 
this particular area. We were lucky to get Sharon when she came 
in as an agricultural expert on veterinary affairs. But if 
there were some kind of system as you just described, I think 
it would be much easier to get the right type of capabilities 
to match requirements.
    General Warner. If you don't do it, civilian contractors 
will probably fill it.
    Mr. Carreau. Yes, I support it as well. With the caveat 
that I think it is almost more important to get sort of the 
interagency element of government up and running first to make 
sure you have proper oversight so that you don't end up with a 
Blackwater-type situation where you have contractors running 
amuck.
    Dr. Snyder. Then that presents a question what does that 
mean to have an interagency up and running? And that could be 
some years down the line. I don't think we want to wait that 
long in doing something. Mrs. Davis, anything further?
    Ms. Davis of California. Just to follow up with this 
because it is an idea that is out there, it is expensive and 
maybe people think that it is pie in the sky a bit. But 
something like the civilian academy to mirror our military 
academies where you have young people again who study and plan 
and do the kind of strategic thinking hopefully that we have in 
the military academies and some sharing that goes on. So some 
of those folks eventually will take on a major responsibility. 
In thinking about these things, is that part of the discussion? 
I mean, is that sort of, wow, we will never get there, or do 
you think that is realistic, or not necessary, I guess?
    General Olson. Military cabinets are focused on 
precommissioning development, whereas your idea has excellent 
applicability further on down the line. Right now the Army runs 
the School of Advanced Military Studies. The Marines have an 
equivalent that they call School of Advanced Warfighting (SAW), 
SAWS. As a matter of fact, USAID, for the first time, has a 
student at the School of Advanced Military Studies. And that is 
where the Army anyway learns how to think strategically and do 
strategic planning. And now this USAID official is going to be 
able to go to an operation, let us say, and plug in very 
comfortably with a military planning team, whereas right now 
military planning teams stand up, officials from civilian 
agencies go there and they are completely lost. They don't 
understand the processes. They don't think strategically about 
operations like the military guys do.
    So I think your idea is right on the mark. I would say bump 
it up a level in terms of where these officials are in their 
careers and I think you have got a great idea there.
    Ms. Davis of California. Ms. Hicks.
    Ms. Hicks. I would just add there is this concept of the 
national security university, which is more along the lines of 
what Rick is pointing to. And the thought there is that you 
would bring together sort of maybe in brick and mortar, but 
also sort of in a virtual sense a consortium of institutions 
where individuals, whether it is the Fire Academy in Emmitsburg 
for the Department of Homeland Security (DHS) or it is the 
Foreign Service Institute for State or it is the National 
Defense University, you have these centers of excellence that 
can teach these bodies, folks coming from all across the 
interagency a common skillset, and at the same time, a diverse 
set of issues.
    Ms. Davis of California. I appreciate that. I am trying to 
get them a little younger, I guess. But just one other quick 
question about the asymmetry between civilian and military, Ms. 
Hicks, that you have spoken to, and again what can Congress be 
doing and seeing that as really it is a budgetary role. You 
know, how you share those resources, how do you--any 
suggestion?
    Ms. Hicks. Well, I think, again, it has to--it is 
essentially at its core a cultural and then resource issue. And 
I do think you can make the resource the leading edge of the 
change. So if you can increase the float, so to speak, for the 
foreign service and for the foreign service that are serving 
out of USAID that helps tremendously in terms of their ability 
to support operations. And then also to go get trained. To go 
down and be at the war colleges or other institutions or even 
the Foreign Service Institute (FSI). So I think that the 
resourcing piece of it is just really bumping up their total 
personnel, making sure they have funds for adequate training, 
and then starting to think having those organizations be tasked 
to think strategically about now that they have these things or 
as they are going to get these resources, how they are going to 
think strategically about employing them.
    General Olson. Can I take 30 seconds? I think it was the 
chairman that said it is hard to put resources against 
something where there is no real model yet. I think we need to 
have the model. I think we need--the model needs to be on the 
table. I think also one of the members said that there are a 
lot of, there is a lot of energy being put into looking at this 
problem. CSIS is doing it. And there are other think tanks and 
governmental agencies out there. I think, and I am not sure 
exactly the mechanism, but if there were a way to tie these all 
together, I think we could come up with something pretty good 
for Congress to consider.
    I am not proposing another commission or anything exciting 
like that. But I think there are ways for Congress to work a 
more--to force, let us say, a more collaborative effort here. I 
think organizations would be interested in doing that if there 
was something to kind of coalesce around it. Right now there 
isn't. Everybody is kind of moving in different directions. 
Looking at different pieces of it, but it is stitching all the 
different pieces together that I think could really help the 
overall effort.
    Mr. Carreau. I would like to add just a couple of comments. 
I totally agree with what my colleagues have said. I spent the 
first year at the Pentagon trying to organize the civilian 
agencies to send folks to Baghdad and it was one of the most 
frustrating years of my life. I think that one of the things I 
think that Congress can do, the agencies don't respond because 
it is not their core mission. And they really have no reason 
to. They are not being graded on it. There is no 
accountability, as you mentioned Mr. Chairman. And I think one 
thing that Congress could do is give them that accountability. 
Give them a modest mandate or authorization to care about the 
stability activities. the Department of Agriculture (USDA), the 
Foreign Agricultural Service, their mission in life is to sell 
U.S. soybeans and corn. And God bless them for it. That is a 
national interest that we want to do. But there comes a time 
when we are going to need agricultural experts to help out in 
Kosovo and in Afghanistan. The same with the Foreign Commercial 
Service at Commerce. They are to promote U.S. exports.
    But there will be a time when they need to help out to do 
business development and private sector development in Iraq. 
And until they have that mandate and until someone is put on 
the hot seat, someone at the Commerce Department, and asked 
what are you doing to support the effort in Iraq as you were 
mandated to do, you won't find that kind of an effort.
    Ms. Davis of California. Thank you all very much. Thank 
you, Mr. Chairman.
    Dr. Snyder. Thank you, Mrs. Davis. Thank you all for being 
here. Let me just extend you an open invitation to submit any 
additional materials as a question for the record right now. So 
if you think of something you think would be helpful, please 
feel free to send it in. We appreciate you-all's service and we 
appreciate your thoughts. Ms. Hicks, we look forward to your 
report. We hope we are one of the first on your list to receive 
it when it is done. Thank you all. The committee is adjourned.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                            December 5, 2007

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 5, 2007

=======================================================================

      
      
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                  <all>

</pre></body></html>
